                 Taxpayer Assistance Center Employees
               Correctly Answered More Tax Law Questions
                During September and October 2003 Than
                        Compared to One Year Ago

                                   January 2004

                       Reference Number: 2004-40-037




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      January 15, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                       Final Audit Report - Taxpayer Assistance Center Employees
                                      Correctly Answered More Tax Law Questions During September
                                      and October 2003 Than Compared to One Year Ago
                                      (Audit # 200340022)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       responses to taxpayers’ tax law questions. The overall objective of the review was to
       determine if the IRS provides accurate and timely responses to taxpayers’ tax law
       questions. In addition, Treasury Inspector General for Tax Administration (TIGTA)
       auditors who made anonymous visits to the Taxpayer Assistance Centers (TAC)
       assessed whether IRS employees adhered to operating guidelines on referral
       procedures1 and were professional and courteous, and whether TAC addresses and
       office hours made available to taxpayers were accurate.
       This review was conducted as a result of an amendment to the Treasury spending bill2
       for Fiscal Year (FY) 2002 proposed by Senator Byron Dorgan (Democrat -
       North Dakota), then Chairman of the Subcommittee on Treasury and General
       Government. The amendment requires us to conduct visits to all TACs and report to
       the Congress on whether taxpayers are provided correct and prompt answers to their
       questions. We are conducting anonymous visits to all TACs over a 2-year period. This
       is the eleventh in a series of bi-monthly reports that we are issuing in response to the
       amendment to the Treasury spending bill.


       1
         Field Assistance office guidelines clearly define the scope of employee expertise (tax law topics for which
       employees receive training) and specific services that are offered to taxpayers within the TACs. Taxpayers that ask
       questions outside the level of employee training should be referred to the IRS toll-free telephone lines or have their
       questions submitted via the Internet (called “R-mail”) for assistance.
       2
         Treasury and General Government Appropriations Act, 2002, Pub. L. No. 107-67, 115 Stat. 514 (2001).
                                                          2


During September and October 2003, TIGTA auditors made 65 anonymous visits to
34 TACs. The auditors asked 130 tax law questions and determined that IRS
employees provided incorrect answers to some of them. For example, IRS employees:
•   Correctly answered 93 (72 percent) of 130 questions.
•   Incorrectly answered 26 (20 percent) of 130 questions.
•   Referred the auditor to IRS publications and generally advised the auditor to do
    his or her own research to find the answer to 4 (3 percent) of 130 questions.
•   Denied service3 to the auditor for 3 (2 percent) of 130 questions.
•   Correctly offered to prepare a written referral or call the IRS toll-free telephone line4
    for 4 (3 percent) of 130 questions.
We commend the IRS for the corrective actions it has taken in response to our
previously issued semiannual and bi-monthly reports. We believe the increase in
accuracy rates as compared to those in the same period in Calendar Year (CY) 2002
can be directly attributed to these actions. For example, during September and
October 2002, IRS employees correctly answered 70 percent and referred 6 percent of
questions to publications, compared to correctly answering 72 percent and referring
only 3 percent to publications during September and October 2003.
In January 2003, we began assessing whether IRS employees adhered to operating
procedures to refer to the IRS toll-free telephone lines or Internet those taxpayer
questions that were outside the scope of services that employees should have been
trained to answer. In addition to scheduled visits, our auditors completed visits to
25 other TACs. The auditors asked 78 “out of scope” questions and determined that
employees did not follow referral procedures for 24 (31 percent) of these questions.
The IRS did not always protect taxpayer privacy. For example, we observed checks
and taxpayer identification numbers on tax returns while visiting TACs. Auditors also
observed that improvement had been made in providing accurate addresses and office
hours to taxpayers, IRS employees were professional and courteous to the TIGTA
auditors in 61 of the 65 visits, and wait time for service was 1 hour or less for all
65 visits.
This report is to advise IRS management of the results of our review. We do not make
recommendations to the IRS in the bi-monthly reports. However, we will issue a trend
report during FY 2004 that will include appropriate recommendations to help ensure
taxpayers are referred to employees that can provide accurate responses to their tax
law questions. Auditors will continue making visits to the TACs throughout CY 2003.


3
  Auditors asked three questions within the scope of services for which IRS employees did not provide an answer,
offer to prepare a written referral, or refer the auditors to another IRS employee or the toll-free telephone lines to
obtain the answers to their questions.
4
  No answer was provided, but in each instance the employee offered to prepare a referral to the IRS toll-free tax law
telephone number to obtain an answer to the question.
                                            3


We will also continue to issue bi-monthly reports on the results to the IRS and the
Congress.
Management’s Response: IRS management appreciated our recognition of the
corrective actions they took which increased accuracy rates compared to the same
period for CY 2002. Management continues to take steps to improve accuracy in the
TACs. Their long-term approach to improving quality is implementation of Embedded
Quality Business Integration, an approach that focuses on standardized measures,
employee monitoring, and feedback tools.
The IRS continues to disagree with including referrals to publications and service
denied when computing the accuracy rates. Management’s complete response to the
draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers who are affected by the
report findings. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
  Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
        During September and October 2003 Than Compared to One Year Ago




                                             Table of Contents


Background ............................................................................................... Page 1
Taxpayers Received Correct Answers to More Tax Law Questions
When Compared to the Same Period Last Year........................................ Page 3
Taxpayers Received Answers to Some Tax Law Questions
Employees Were Not Trained to Answer................................................... Page 6
Auditors Generally Had Positive Experiences When They Visited
Taxpayer Assistance Centers.................................................................... Page 6
Taxpayer Privacy Was Not Adequately Protected in Some
Taxpayer Assistance Centers.................................................................... Page 7
Improvements Were Made to Provide Accurate Taxpayer
Assistance Center Office Hours and Addresses to Taxpayers .................. Page 7
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 10
Appendix II – Major Contributors to This Report........................................ Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – States Visited During September and October 2003.......... Page 13
Appendix V – Management’s Response to the Draft Report ..................... Page 14
  Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
        During September and October 2003 Than Compared to One Year Ago

                                The Senate Committee on Appropriations was deeply
Background
                                concerned about the findings in a Treasury Inspector
                                General for Tax Administration (TIGTA) audit report on the
                                Internal Revenue Service’s (IRS) Taxpayer Assistance
                                Centers (TAC).1 That report showed auditors did not
                                receive accurate or sufficient answers to 73 percent of their
                                tax law questions posed during anonymous visits to the
                                TACs during January and February 2001.
                                Based on the results of that review, Senator Byron Dorgan
                                (Democrat - North Dakota), then Chairman of the
                                Subcommittee on Treasury and General Government,
                                proposed an amendment to the Treasury spending bill2 for
                                Fiscal Year (FY) 2002. The amendment requires us to
                                conduct visits to all TACs and report to the Congress as to
                                whether taxpayers are provided correct and prompt answers
                                to their questions. Auditors are conducting anonymous
                                visits to all TACs over a 2-year period.
                                The IRS Field Assistance (FA) office in the Wage and
                                Investment (W&I) Division has overall responsibility for
                                the TACs. The TACs exist primarily to serve taxpayers that
                                choose to seek help from the IRS in person. The IRS
                                employees that work in the TACs provide assistance in
                                interpreting tax laws and regulations, preparing some tax
                                returns, resolving inquiries on taxpayer accounts, and
                                providing various other services designed to minimize the
                                burden on taxpayers in satisfying their tax obligations.
                                There are approximately 400 TACs located throughout the
                                United States (U.S.), including Washington, D.C.
                                According to the IRS, the TACs served approximately
                                7.7 million taxpayers between January and October 2003.3
                                Approximately 1.6 million of these taxpayers visited the
                                TACs for assistance with the tax law.




                                1
                                  Letter Report: The Internal Revenue Service Continues to Give
                                Incorrect Tax Law Information in Taxpayer Assistance Centers
                                (Reference Number 2001-40-077, dated May 2001).
                                2
                                  Treasury and General Government Appropriations Act, 2002,
                                Pub. L. No. 107-67, 115 Stat. 514 (2001).
                                3
                                  We did not validate the accuracy of the statistics provided by the IRS
                                on the number of taxpayers that visited the TACs.
                                                                                                  Page 1
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
      During September and October 2003 Than Compared to One Year Ago

                              In addition to the anonymous visits being performed by
                              TIGTA auditors, the IRS FA Quality Review Staff began
                              visiting the TACs in October 2002 to anonymously ask tax
                              law questions within the scope of services that TAC
                              employees should have been trained to answer. The results
                              of these reviews will provide each employee’s manager
                              specific feedback on the quality of service provided in the
                              TAC. The IRS established an accuracy goal of 80 percent
                              for FY 2003. The IRS also plans to use our Calendar
                              Year (CY) 2002 results as baseline figures to measure
                              improvement during FY 2003.
                              Our questions relate to 21 tax law topics that are within the
                              scope of services. The questions were designed to cover a
                              wide range of tax law topics to provide an overall
                              assessment of whether taxpayers are receiving correct
                              answers to questions that an individual taxpayer4 might ask
                              when he or she visits a TAC. In May 2003, auditors
                              changed the scope of the questions or added additional
                              scenarios that are more applicable to the types of questions
                              taxpayers ask subsequent to the filing season.5
                              Beginning in January 2003, we also began evaluating
                              whether employees adhered to operating procedures6 to refer
                              to the IRS toll-free telephone lines or Internet (R-mail) those
                              taxpayer questions that were outside the scope of services
                              that employees should have been trained to answer.
                              This report is the eleventh in a series of bi-monthly reports
                              we are issuing on the results of the visits to the TACs. The
                              review was performed in the IRS Customer Assistance,
                              Relationships, and Education office in the W&I Division in
                              September and October 2003. TIGTA auditors
                              anonymously visited 34 TACs in 10 states. Another


                              4
                                Individual taxpayers are nonbusiness taxpayers who file U.S.
                              Individual Income Tax Returns (Forms 1040, 1040A, or 1040EZ).
                              5
                                The period from January through mid-April when most individual
                              income tax returns are filed.
                              6
                                FA office guidelines clearly define the scope of employee expertise
                              (tax law topics for which employees receive training) and specific
                              services offered within the TACs. Taxpayers that ask questions outside
                              the level of employee training should be referred to the IRS toll-free
                              telephone lines or have their questions submitted via the Internet for
                              assistance.
                                                                                             Page 2
  Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
        During September and October 2003 Than Compared to One Year Ago

                                25 TACs in 8 states were visited as part of our referral
                                assessment (see Appendix IV for specific states visited).
                                This review was conducted in accordance with Government
                                Auditing Standards. However, we did not determine the
                                cause and effect for the findings and will make no
                                recommendations in the bi-monthly reports. We will issue a
                                trend report during FY 2004, incorporating the results from
                                our 12 CY 2002 and 2003 bi-monthly reports and the results
                                of our FY 2004 audits, that will include appropriate
                                recommendations to help ensure taxpayers are referred to
                                employees that can provide accurate responses to their tax
                                law questions.
                                Detailed information on our objective, scope, and
                                methodology is presented in Appendix I. Major
                                contributors to the report are listed in Appendix II.
                                During September and October 2003, IRS employees
Taxpayers Received Correct
                                correctly answered 72 percent and referred only 3 percent of
Answers to More Tax Law
                                questions to publications, compared to correctly answering
Questions When Compared to
                                70 percent and referring 6 percent to publications during
the Same Period Last Year
                                September and October 2002. We commend the IRS for the
                                corrective actions it has taken in response to our previous
                                semiannual and bi-monthly reports. We believe the increase
                                in accuracy rates as compared to those in the same period in
                                CY 2002 can be directly attributed to these actions.
                                Our auditors made 65 anonymous visits to 34 TACs and
                                asked 130 tax law questions during September and
                                October 2003. The results were as follows:
                                •   Ninety-three (72 percent) of the 130 questions were
                                    correctly answered. However, the IRS employees
                                    provided correct answers to 14 of the 93 questions
                                    without asking all of the required questions outlined in
                                    the tax law instructions and publications. For example,
                                    for 10 of the 14 questions, the IRS employees stated that
                                    the auditors did not have to report child support
                                    payments as income. However, the employees did not
                                    ask if the auditors’ payments were specifically
                                    designated as child support in the divorce agreement.
                                •   Twenty-six (20 percent) of the 130 questions were
                                    incorrectly answered. For example, for two questions,
                                    the IRS employees incorrectly advised auditors that they
                                                                                        Page 3
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
      During September and October 2003 Than Compared to One Year Ago

                                  would have to pay taxes on the alimony payments they
                                  received. The correct answer to the scenario presented
                                  by the auditors was the alimony payments were not
                                  taxable because they were designated as child support.
                              •   Four (3 percent) of the 130 questions resulted in the IRS
                                  employees referring the auditors to publications and
                                  generally advising the auditors to do their own research
                                  to find the answers to the questions. For example, an
                                  auditor asked if he or she could file as head of
                                  household. The IRS employee did not provide an
                                  answer but referred the auditor to a publication and
                                  provided Form 1040 and its instructions.
                              •   Three (2 percent) of the 130 questions resulted in the
                                  auditors being denied service.7 For example, an auditor
                                  wanted to know if Social Security income was taxable.
                                  The IRS employee stated that this could not be answered
                                  without verifying the auditor’s income as recorded on
                                  the IRS’ management information system. The IRS
                                  employee did not ask additional probing questions even
                                  though the auditor stated the amount of the income and
                                  was prepared to answer all the possible questions
                                  outlined in the IRS publications and instructions.
                                  According to IRS guidelines, employees should use
                                  publications and instructions as tools when assisting
                                  taxpayers with tax law questions. By not using available
                                  resources to ask all required questions, IRS employees
                                  in the above examples made assumptions and provided
                                  answers without considering relevant facts to ensure the
                                  answers given were correct.
                              •   Four (3 percent) of the 130 questions resulted in the IRS
                                  employees correctly offering to refer the auditors to the
                                  IRS toll-free tax law telephone number because the IRS
                                  employees were not trained on the tax law topic.8 For


                              7
                                Auditors asked three questions within the scope of services for which
                              IRS employees did not provide an answer, offer to prepare a written
                              referral, or refer the auditors to another IRS employee or the toll-free
                              telephone lines to obtain the answers to their questions.
                              8
                                No answer was provided, but in each instance the IRS employee
                              offered to refer the auditor to the IRS toll-free tax law telephone number
                              to obtain an answer to the question.
                                                                                                Page 4
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
      During September and October 2003 Than Compared to One Year Ago

                                    example, an auditor asked if his or her brother could
                                    take the Individual Retirement Arrangement Credit. The
                                    IRS employee obtained the publication and stated he or
                                    she had not been trained on the tax law topic. Therefore,
                                    the IRS employee correctly offered to prepare a written
                                    referral to obtain an answer to the question.
                              Table 1 provides a breakdown of the accuracy of the
                              answers to our questions.
                                                       Table 1: Tax Law Questions
                                                          (130 questions asked)
                                                                            Ref.         Correct
                                                       Correct but          to   Service Toll-Free
                                               Correct Incomplete Incorrect Pub. Denied Referral
                                  Responses       79           14            26          4          3      4
                              Percentages 61%                  11%           20%         3%       2%      3%
                              Source: Anonymous visits performed by TIGTA auditors.

                              Chart 1 shows a comparison of CY 2002 to CY 2003
                              accuracy rates.
                                  Chart 1: Comparison of September and October 2002 and 2003
                                                 Bi-Monthly Accuracy Rates9
                                                       Sept/Oct 03       Sept/Oct 02
                                   100
                                    80     72%
                                              70%
                                    60
                                    40
                                                       20%24%
                                    20
                                                                      3% 6%         2% 0%          3%0%
                                     0
                                             ct




                                                                                                     l
                                                           t




                                                                         b




                                                                                    ed




                                                                                                   ra
                                                         ec




                                                                      Pu
                                          re




                                                                                   i




                                                                                                 er
                                                       rr




                                                                                en
                                          or




                                                                                               ef
                                                                    to
                                                     co




                                                                               D
                                         C




                                                                                              R
                                                   In




                                                                 ef




                                                                               r.
                                                                             Se
                                                                R




                              Source: TIGTA reviews conducted during September and October 2002
                              and 2003.




                              9
                               The “Correct” rates presented in the chart include “Correct” and
                              “Correct but Incomplete” responses.
                                                                                                          Page 5
    Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
          During September and October 2003 Than Compared to One Year Ago

                                  In January 2003, we began our assessment of whether IRS
 Taxpayers Received Answers to
                                  employees adhered to operating guidelines that require the
 Some Tax Law Questions
                                  referral of tax law questions outside the scope of services
 Employees Were Not Trained to
                                  they have been trained to answer. In addition to scheduled
 Answer
                                  visits in September and October 2003, TIGTA auditors
                                  completed visits to 25 additional TACs. The auditors asked
                                  78 “out of scope” questions and determined that employees
                                  did not follow referral procedures in providing answers to
                                  24 (31 percent) of the questions asked.
                                  IRS operating guidelines require IRS employees that receive
                                  a question beyond their level of training to offer to call the
                                  correct IRS toll-free telephone line on behalf of the taxpayer
                                  or to submit the question in writing to a subject-matter
                                  expert(s) via the Internet (R-mail).10 Table 2 provides a
                                  breakdown of IRS employees’ answers to tax law questions
                                  beyond their level of training.
                                                     Table 2: Out of Scope Questions
                                                           (78 questions asked)
                                                                      Questions Answered (24)11
                                                   Correctly
                                                   Referred                                     Ref. to
                                                                  Correct        Incorrect
                                                                                                 Pub.
                                       Responses      54             13              7             4
                                   Percentages    69%             54%           29%               17%
                                  Source: Anonymous visits performed by TIGTA auditors.

                                  Auditors also assessed the quality of assistance provided by
Auditors Generally Had Positive
                                  IRS employees, including whether the employees were
Experiences When They Visited
                                  professional and courteous, the wait time for service, and
Taxpayer Assistance Centers
                                  whether employees’ names were given or visible. Auditors
                                  generally had positive experiences. Table 3 shows a
                                  breakdown of the quality of assistance results.




                                  10
                                     Each question submitted to the IRS R-mail system will be assigned to
                                  a designated employee who will provide an answer to the question
                                  within 15 business days.
                                  11
                                     The IRS employee should have referred the out of scope question to
                                  the toll-free telephone lines or R-mail, but instead the IRS employee
                                  answered the question.
                                                                                                  Page 6
    Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
          During September and October 2003 Than Compared to One Year Ago

                                                      Table 3: Quality of Assistance
                                                   (34 TACs visited, 2 auditors per site)
                                                                           Occurrences        Percent12
                                   Employee Professional/Courteous              61              94%
                                   Wait Time 0-15 Minutes                       50              77%
                                   Wait Time 16-30 Minutes                      10              15%
                                   Wait Time 31-45 Minutes                      4                6%
                                   Wait Time 46-60 Minutes                      1                2%
                                   Wait Time Greater Than 1 Hour                0                 --
                                   Employee Name Given or Visible           39                  60%
                                  Source: Anonymous visits performed by TIGTA auditors.

                                  Taxpayer privacy was not adequately protected in
Taxpayer Privacy Was Not
                                  2 (6 percent) of the 34 TACs visited. In response to
Adequately Protected in Some
                                  previously issued reports, the IRS published an alert that
Taxpayer Assistance Centers
                                  advised employees to take steps to protect taxpayer privacy.
                                  However, during three of our visits, checks and a tax return
                                  containing the Social Security Number (SSN) or Taxpayer
                                  Identification Number of taxpayers were visible to TIGTA
                                  auditors while they were being assisted by IRS employees.
                                  The protection of taxpayer privacy is a very significant
                                  issue. When IRS employees do not take steps to protect
                                  taxpayer information, especially SSNs, identity theft may
                                  occur.
                                  The TIGTA auditors found that improvements were made to
Improvements Were Made to
                                  ensure that TAC addresses and office hours made available
Provide Accurate Taxpayer
                                  to taxpayers matched the information posted at the TACs.
Assistance Center Office Hours
                                  Taxpayers can access the IRS Internet web site and follow
and Addresses to Taxpayers
                                  the appropriate links to obtain the addresses and office hours
                                  of the TACs located in their state. Taxpayers that do not
                                  have access to the Internet may call the IRS toll-free
                                  telephone numbers or automated telephone messaging
                                  system to obtain this information.
                                  In our first semiannual report, we made no
                                  recommendations pertaining to TAC addresses and office

                                  12
                                    Percentage is based on 65 visits instead of 68 because only 1 auditor
                                  made a visit to the Santa Rosa; Oakland; and Visalia, California, TACs,
                                  resulting in a total of 65 TACs visited.
                                  (34 TACs x 2 auditors - 3 visits = 65 TACs)
                                                                                                  Page 7
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
      During September and October 2003 Than Compared to One Year Ago

                              hours because of the IRS’ response to one of our bi-monthly
                              reports.13 However, while progress was made, we continued
                              to identify concerns in this area from July through
                              December 2002. Specifically, 2 percent of TAC addresses
                              and 43 percent of TAC office hours posted at the TACs did
                              not match those on the Internet. As a result, our second
                              semiannual trend report included a recommendation to
                              ensure TAC addresses and office hours made available to
                              taxpayers are accurate. In response, the FA office issued
                              guidance that required managers to certify the accuracy of
                              addresses and office hours on the various systems. The FA
                              office also provided employee training on how to update
                              addresses and office hours and began monitoring to ensure
                              the accuracy of information made available to taxpayers.
                              Beginning in January 2003, we evaluated whether TAC
                              addresses and office hours provided to taxpayers via the
                              Internet, toll-free telephone numbers, and automated
                              telephone messaging system matched the information
                              posted in the TACs. Auditors found the following.
                              Improvement has been made to ensure addresses and
                              office hours made available to taxpayers match the
                              addresses and office hours posted at the TACs
                              •    Addresses posted at 30 (91 percent) of 3314 TACs
                                   matched the addresses listed on the Internet, toll-free
                                   telephone numbers, and automated telephone messaging
                                   system.
                              •    Office hours for 28 (82 percent) of the 34 TACs with
                                   office hours posted on the Internet, toll-free telephone
                                   numbers, and automated telephone messaging system
                                   matched the hours posted at the TAC.
                              The IRS informed us that the addresses and office hours
                              available to taxpayers from the Internet were the most
                              reliable. As a result, we used these data as a baseline to
                              expand our analysis to determine if addresses and office
                              hours provided to taxpayers from the Internet matched those

                              13
                                 Management Advisory Report: Taxpayers Continue to Receive
                              Incorrect Answers to Some Tax Law Questions (Reference Number
                              2002-40-113, dated June 2002).
                              14
                                 Percentage based on 33 TACs instead of 34 because the address was
                              not posted at 1 TAC.
                                                                                            Page 8
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
      During September and October 2003 Than Compared to One Year Ago

                              on the IRS toll-free telephone numbers and automated
                              telephone messaging system.
                              Improvement has been made to ensure addresses and
                              office hours provided to taxpayers that accessed the
                              IRS Internet web site matched the information provided
                              by the IRS toll-free telephone numbers and automated
                              telephone messaging system
                              Tables 4 and 5 show the results of our comparison of
                              addresses and office hours made available to taxpayers that
                              access the Internet to the information made available to
                              taxpayers that call the IRS toll-free telephone numbers or
                              automated telephone messaging system.
                                  Table 4: Comparison of Accuracy of Information Provided
                                                 via Internet to Toll-Free
                                                          Occurrences             Percent
                               Address Correct                34                  100%
                               Office Hours Correct            34                   100%
                              Source: Anonymous visits performed by TIGTA auditors.

                                 Table 5: Comparison of Accuracy of Information Provided via
                                      Internet to Automated Telephone Messaging System
                                                          Occurrences             Percent
                               Address Correct                34                   100%
                               Office Hours Correct            34                   100%
                              Source: Anonymous visits performed by TIGTA auditors.




                                                                                           Page 9
     Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
           During September and October 2003 Than Compared to One Year Ago

                                                                                                  Appendix I


                         Detailed Objective, Scope, and Methodology

The overall objective of the review was to determine if the Internal Revenue Service (IRS)
provides accurate and timely responses to taxpayers’ tax law questions. In addition, Treasury
Inspector General for Tax Administration auditors who made anonymous visits to the Taxpayer
Assistance Centers (TAC) assessed whether IRS employees adhered to operating guidelines on
referral procedures and were professional and courteous, and whether the TAC addresses and
office hours made available to taxpayers were accurate. We did not determine the cause and
effect for the findings, so we are making no recommendations in the bi-monthly reports.
To achieve this objective, auditors performed the following tests:
I.       Determined if the IRS provided quality service and accurate responses to tax law
         inquiries at the 34 TACs visited. Auditors asked 130 tax law questions that an individual
         taxpayer1 might ask. Auditors developed questions based on the training provided to IRS
         employees during the fall of 2001 and the scope of services for tax law assistance
         prescribed in the Fiscal Years 2002 and 2003 Field Assistance (FA) Operating
         Procedures.
II.      Determined if IRS employees followed FA Operating Procedures to refer questions that
         were outside the scope of services they should have been trained to answer. In addition
         to scheduled visits, auditors completed visits to 25 additional TACs and asked
         78 questions that were beyond the IRS employees’ level of training.
III.     Determined the quality of service provided by the IRS employees.




1
 Individual taxpayers are nonbusiness taxpayers who file United States Individual Income Tax Returns
(Forms 1040, 1040A, or 1040EZ).



                                                                                                       Page 10
 Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
       During September and October 2003 Than Compared to One Year Ago

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Randee Cook, Director
Frank Jones, Audit Manager
Russell Martin, Audit Manager
Tanya Boone, Senior Auditor
Pamela DeSimone, Senior Auditor
Lena Dietles, Senior Auditor
Deborah Drain, Senior Auditor
Robert Howes, Senior Auditor
Edie Lemire, Senior Auditor
Grace Terranova, Senior Auditor
Jerome Antoine, Auditor
Robert Baker, Auditor
Jerry Douglas, Auditor
Andrea Hayes, Auditor
Kathy Henderson, Auditor
Mary Keyes, Auditor




                                                                                         Page 11
 Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
       During September and October 2003 Than Compared to One Year Ago

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison SE:W:S:PA




                                                                                    Page 12
 Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
       During September and October 2003 Than Compared to One Year Ago

                                                                                    Appendix IV


                  States Visited During September and October 2003




The 10 states visited in which auditors asked questions within the scope of services include
Alaska, California, Idaho, Iowa, Minnesota, Nevada, New Jersey, Oregon, Texas, and
Washington.
The eight states visited in which auditors asked questions outside the scope of services include
California, Minnesota, Nevada, New Jersey, Oregon, Pennsylvania, Texas, and Washington.




                                                                                           Page 13
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
      During September and October 2003 Than Compared to One Year Ago

                                                                    Appendix V


                 Management’s Response to the Draft Report




                                                                         Page 14
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
      During September and October 2003 Than Compared to One Year Ago




                                                                         Page 15
Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
      During September and October 2003 Than Compared to One Year Ago




                                                                         Page 16
